U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 28, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Amarin Pharma, Inc. v. International Trade Commission, et al.,
S.CtNo. 19-152

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 30,
2019, and placed on the docket on August 1, 2019. The government's response is due on
September 3, 2019.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including October 3, 2019, within which to file for all respondents.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0 152
AMARIN PHARMA, INC., ET AL.
ITC, ET AL.

ASHLEY C. PARRISH
KING & SPALD[NG LLP
1700 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20006
202-737-0500
APARRISH@KSLW.COM

